JESSICA S. RUTHERFORD
Email: JRutherford@24iplg.com
Admitted in NY and CT

December 5, 2019
The Hon. Scott S. Harris, Esq.
Chief Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Gold Value International Textile, Inc. v. Sanctuary Clothing, LLC, et al.
Docket No. 19-708
Dear Mr. Harris:
This firm represents Respondents in this matter, and I am counsel of record.
Pursuant to Supreme Court Rules 15.3 and 30.4, I hereby request that the
time to respond to the Petition for a Writ of Certiorari be extended by thirty-one
(31) days to, and including, Monday, February 3, 2020. The Petition was docketed
on December 4, 2019. Consequently, the brief in opposition must currently be filed
by January 3, 2020. Due to certain scheduling conflicts, the press of other business
commitments, and the intervening Christmas and New Year’s holidays, counsel
respectfully requests additional time within which to prepare a responsive brief
which properly addresses all of the issues raised in the Petition.
As indicated by the enclosed certificate of service, we have concurrently
served a copy of this letter upon counsel for the Petitioner. In addition to sending
the original overnight to the Court, we are also filing a copy of this letter
electronically.
Thank you for your courtesy and prompt consideration of this request.
Respectfully submitted,
/s/ Jessica S. Rutherford
Jessica S. Rutherford
cc: All listed counsel on attached Certificate of Service

CERTIFICATE OF SERVICE
Pursuant to Rule 29.5 of the Rules of the Supreme Court of the United
States, I hereby certify that all parties required to be served have been served. On
December 5, 2019, I caused a copy of RESPONDENTS’ REQUEST FOR
EXTENSION OF TIME TO FILE RESPONSE TO PETITION FOR WRIT OF
CERTIORARI to be served via third-party commercial carrier for overnight
delivery, with all fees thereon prepaid, and via electronic mail on the following
parties:
Scott Alan Burroughs
Email: scott@donigerlawfirm.com
Trevor W. Barrett
Email: tbarrett@donigerlawfirm.com
Frank Gregory Casella
Email: fcasella@donigerlawfirm.com
Doniger/Burroughs
603 Rose Avenue
Venice, California 90291
Phone: 310-590-1820
Attorneys for Petitioner
Dated: December 5, 2019
/s/ Jessica S. Rutherford
Jessica S. Rutherford

